No. 20-_

IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER SPREITZ, Petitioner,
V.

DAVID SHINN,
Director, Arizona Department of Corrections,

Rehabilitation & Reentry, Respondent.

NOTICE AND CERTIFICATE OF SERVICE
TO: Lacey Stover Gard
Arizona Assistant Attorney General
Attorney General's Office
400 W. Congress, Bldg. S-315

TucsonAZ 85701
Please take notice that I have sent via Federal Express the original and ten
copies of the Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari in the above-captioned matter to the Clerk of the Court, and that I am
serving the Attorney General with one copy via U.S. mail on this 28th day of
December, 2020. All parties required to be served have been served.
Jan M.Sands

Federal Public Defender
Timothy M. Gabrielsen*
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE DISTRICT OF ARIZONA
407 W. Congress, Ste. 501

Tucson, Arizona 85701

Timothy 1^1. Gabrielsen
Counsel for Petitioner
Counsel of Record

